U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 10, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: California, et al. v. Texas, et al., No. 19-840, and Texas, et al. v.
California, et al., No. 19-1019
Dear Mr. Harris:
On November 10, 2020, this Court heard oral argument in these consolidated cases concerning whether, as a result of the elimination in 2017 of the monetary payment under 26 U.S.C.
5000A, which was enacted as part of the Patient Protection and Affordable Care Act (ACA), Pub.
L. No. 111-148, 124 Stat. 119, that provision is no longer a valid exercise of Congress’s legislative
authority; and whether, if that provision is now invalid, the remainder of the ACA’s provisions are
inseverable from it.
1. The federal respondents had previously filed a brief contending that Section 5000A(a)
is unconstitutional and is inseverable from the remainder of the ACA, although the scope of relief
entered should be limited to the provisions shown to injure the plaintiffs. The government advanced the same positions at oral argument.
Following the change in Administration, the Department of Justice has reconsidered the
government’s position in these cases. The purpose of this letter is to notify the Court that the
United States no longer adheres to the conclusions in the previously filed brief of the federal respondents.
2. After reconsideration of the issue, it is now the position of the United States that the
amended Section 5000A is constitutional. In National Federation of Independent Business v.
Sebelius (NFIB), this Court held that the payment provision in Section 5000A could be sustained
as a valid exercise of Congress’s constitutional power because it offered a choice between maintaining health insurance and making a tax payment. 567 U.S. 519, 570, 574 & n.11 (2012). In so
ruling, the Court noted that no negative legal consequences attached to not buying health insurance
beyond requiring a payment to the IRS, and that the government’s position in the case confirmed
that if someone chooses to pay rather than obtain health insurance, that person has fully complied
with the law. Id. at 568. Congress in 2017 amended Section 5000A(c) by reducing to zero (effective in 2019) the shared responsibility payment assessed under Section 5000A(b) as a lawful alternative to purchasing insurance under Section 5000A(a), see Tax Cuts and Jobs Act, Pub. L. No.
115-97, Tit. I, § 11081, 131 Stat. 2092, but it did not amend Section 5000A(a) or (b). In the view

of the United States, Congress’s decision to reduce the payment amount to zero therefore did not
convert Section 5000A from a provision affording a constitutional choice into an unconstitutional
mandate to maintain insurance. Rather than imposing a new burden on covered individuals, the
2017 amendment preserved the choice between lawful options and simply eliminated any financial
or negative legal consequence from choosing not to enroll in health coverage.
It is also now the position of the United States that, if this Court nevertheless concludes
that Section 5000A(a) is unconstitutional, that provision is severable from the remainder of the
ACA. The severability inquiry typically requires asking “whether Congress would have wanted
the rest of [a statute] to stand, had it known that” one or more particular provisions of the statute
would be held invalid. NFIB, 567 U.S. at 587 (opinion of Roberts, C.J.). And the “normal rule is
that partial, rather than facial, invalidation is the required course.” Free Enter. Fund v. Public Co.
Accounting Oversight Bd., 561 U.S. 477, 508 (2010) (citation and internal quotation marks omitted). In the view of the United States, that presumption of severability cannot be overcome here,
particularly as the 2017 Congress that reduced to zero the amount of the shared responsibility
payment option under Section 5000A simultaneously left in place the remainder of the ACA.
3. Because oral argument was held and these cases were submitted three months ago, and
because other parties have fully briefed both sides of the questions presented, the United States is
not requesting supplemental briefing.
I would appreciate it if you would circulate this letter to the Members of the Court.
Sincerely,

Edwin S. Kneedler
Deputy Solicitor General*
cc:

See Attached Service List

* The Acting Solicitor General is recused in these cases.

2

19-0840
CALIFORNIA, ET AL.
TEXAS, ET AL.

HOPE M. BABCOCK
INSTITUTE FOR PUBLIC REPRESENTATION
GEORGETOWN UNIVERSITY LAW CENTER
600 NEW JERSEY AVENUE NW
WASHINGTON, DC 20001
202-662-9535
BABCOCK@LAW.GEORGETOWN.EDU
A. XAVIER BAKER
CROWELL & MORNING LLP
1001 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-624-2842
XBAKER@CROWELL.COM
NICOLE G. BERNER
1800 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20036
202-730-7383
NICOLE.BERNER@SEIU.ORG
K. LEE BLALACK
O'MELVENY6 & MYERS LLP
1625 EYE STREET, N.W.
WASHINGTON, DC 20006
202-383-5300
LBLALACK@OMM.COM
DAVID CHRISTOPHER BOYLE
P.O. BOX 15143
LONG BEACH, CA 90815
DBO@BOYLESLAW.ORG

STUART F. DELERY
GIBSON,DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036-5306
202-955-8500
SDELERY@GIBSONDUNN.COM
JAY DESANTO
CROWELL & MORING LLP
1001 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20001-2595
202-624-2812
JDESANTO@CROWELL.COM
NICHOLAS M. DICARLO
ZUCKERMAN SPAEDER LLP
1800 M STREET NW
SUITE 1000
WASHINGTON, DC 20036-5807
202-778-1835
NDICARL@ZUCKERMAN.COM
JEREMY C. DOERRE
TILLMAN WRIGHT PLLC
3440 TORINGDON WAY
SUITE 310
CHARLOTTE, NC 28277
704-248-4883
JDOERRE@TI-LAW.COM
JOHN C. EASTMAN
THE CLAREMONT INSTITUTE CENTER FOR
CONSTITUTIONAL JURISPRUNCE
CHAPMAN UNIVERSITY
DALE E. FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
JEASTMAN@CHAPMAN.EDU

JOHN ALLEN EIDSMOE
FOUNDATION FOR MORAL LAW
ONE DEXTER AVE.
MONTGOMERY, AL 36064
334-262-1245
EIDSMOEJA@JUNO.COM
BRIAN H. FLETCHER
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION CLINIC
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-724-3345
BFLETCHER@LAW.STANDFORD.EDU
BENJAMIN M. FLOWERS
OHIO SOLICITOR GENERAL
30 E. BROAD ST.
17TH FL.
COLUMBUS, OH 43215
614-466-8980
BFLOWERS@OHIOATTORNEYGENERAL.GOV
MATTHEW C. FORYS
LANDMARK LEGAL FOUNDATION
19415 DEERFEILD AVE.
SUITE 312
LEESBURG , VA 20176
703-554-6100
MATT@LANDMARKLEGAL.ORG
MAAME GYAMFI
AARP FOUNDATION
601 E STREET, NW
WASHINGTON, DC 20049
202-434-6100
MGYAMFI@AARP.ORG

CAITLIN J. HALLIGAN
SELENDY & GAY PLLC
1290 AVENUE OF THE AMERICAS
ONE HOGAN PLACE
NEW YORK, NY 10104
212-390-9000
CHALLIGAN@SELENDYGAY.COM
KYLE DOUGLAS HAWKINS
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX 12548 (MC 059)
AUSTIN, TX 78711-2548
512-936-1700
KYLE.HAWKINS@OAG.TEXAS.GOV
MATTHEW S. HELLMAN
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON , DC 20001-4412
202-639-6000
MHELLMAN@JENNER.COM
ROBERT E. HENNEKE
TEXAS PUBLIC POLICY FOUNDATION FOR
THE AMERICAN FUTURE
901 CONGRESS AVENUE
AUSTIN, TX 78701
512-472-2700
RHENNEKE@TEXASPOLICY.COM
HYLAND HUNT
DEUTSCH HUNT PLLC
300 NEW JERSEY AVENUE, N.W.
SUITE 900
WASHINGTON, DC 20001
202-868-6915
HHUNT@DEUTSCHUNT.COM

WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
MARK P. JOHNSON
DENTONS US LLP
4520 MAIN STREET
SUITE 1100
KANSAS CITY, MO 64111
816-460-2400
MARK.JOHNSON@DENTONS.COM
ALLON KEDEM
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE. NW
WASHINGTON, DC 20001
202-942-6234
ALLON.KEDEM@ARNOLDPORTER.COM
RAKESH N. KILARU
WILKINSON WALSH LLP
2001 M STREET, NW
10TH FLOOR
WASHINGTON, DC 20036
202-847-4000
RKILARU@WILKINSONWALSH.COM
MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM

DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV
JOHN LONGSTRETH
K&L GATES LLP
1601 K STREET, NW
WASHINGTON, DC 20006
202-778-9000
JOHN.LONGSTRETH@KLGATES.COM
TIMOTHY C. MACDONNELL
BLACK LUNG CLINIC WASHINGTON AND
LEE UNIVERSITY SCHOOL OF LAW, LEWIS
HALL
1 E. DENNY CIRCLE
ROOM 106
LEXINGTON, VA 24450
540-458-8562
MACDONNELLT@WLU.EDU
SEAN MAROTTA
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5600
SEAN.MAROTTA@HOGANLOVELLS.COM
KIRSTEN V. MAYER
ROPES & GRAY LLP
PRUDENTIAL TOWER
800 BOYLSTON STREET
BOSTON , MA 02199
617-951-7000
KIRSTEN.MAYER@ROPESGRAY.COM

RAFFI MELKONIAN
WRIGHT & CLOSE
ONE RIVERWAY
SUITE 2200
HOUSTON, TX 77056
713-572-4321
MELKONIAN@WRIGHTCLOSE.COM
STEPHEN W. MILLER
HARRIS, WILTSHIRE & GRANNIS LLP
1919 M STREET, NW
8TH FLOOR
WASHINGTON , DC 20036
202-730-1300
SMILLER@HWGLAW.COM
LEONARD A. NELSO
AMERICAN MEDICAL ASSOCIATION
330 N. WABASH AVE.
SUITE 39300
CHICAGO, IL 60611
312-464-5532
LEONARD.NELSON@AMA-ASSN.ORG
LEONARD A. NELSON
AMERICAN MEDICAL ASSOCIATION
330 N. WABASH AVE.
SUITE 39300
CHICAGO, IL 60611
312-464-5532
LEONARD.NELSON@AMA-ASSN.ORG
SCOTT L. NELSON
PUBLIC CITIZEN LITIGTION GROUP
1600 20TH STREET NW
WASHINGTON, DC 20009
202-588-1000
WWW.CITIZEN.ORG

JOSEPH R. PALMORE
MORRISON & FOERSTER LLP
2000 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006-1888
202-887-6940
JPALMORE@MOFO.COM
JANE PERKINS
NATIONAL HEALTH LAW PROGRAM
200 N. GREESBORO STREET
SUITE D-13
CARRBORO, NC 27510
919-968-6308
PERKINS@HEALTHLAW.ORG
ELIZABETH B. PRELOGAR
COOLEY LLP
1299 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-842-7800
EPRELOGAR@COOLEY.COM
JAIME A. SANTOS
GOODWIN PROCTER LLP
1900 N STREET, NW
WASHINGTON, DC 20036
202-346-4000
JSANTOS@GOODWINLAW.COM
ANDREW L. SCHLAFLY
ATTORNEY AT LAW
939 OLD CHESTER RD.
FAR HILLS, NJ 07931
908-719-8608
ASCHLAFLY@AOL.COM

WILLIAM B. SCHULTZ
ZUCKERMAN SPAEDER LLP
1800 M STREET, N.W.
SUITE 1000
WASHINGTON, DC 20036-5807
202-778-1800
WSCHULTZ@ZUCKERMAN.COM
VIRGINIA A. SEITZ
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8000
VSEITZ@SIDLEY.COM
JAY ALAN SEKULO
THE AMERICAN CENTER LAW & JUSTICE
201 MARYLAND AVE. NE
WASHINGTON, DC 20002
202-546-8890
SEKULOW@ACLJ.ORG
PRATIK A. SHAH
AKIN, GUMP, STRAUSS, HAUER & FELD LLP
2001 K STREET, NW
1333 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20006
202-887-4000
PSHAH@AKINGUMP.COM
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG

SAMUEL P. SIEGEL
STATE OF CALIFORNIA
DEPARTMENT OF JUSTICE
1300 I STREET
SACRAMENTO , CA 95814
916-210-6269
SAM.SIEGEL@DOJ.CA.GOV
GEOFFREY D. STROMMER
HOBBS, STRAUS, DEAN & WALKER, LLP
215 SW WASHINGTON ST.
SUITE 200
PORTLAND, OR 97204
503-242-1745
GSTROMMER@HOBBSSTRAUS.COM
STEVEN M. SULLIVAN
ASSISTANT ATTORNEY GENERAL
200 SAINT PAUL PLACE
20TH FLOOR
BALTIMORE, MD 21202
410-576-6325
SSULLIVAN@OAG.STATE.MD.US
LORRAINE ALOFA VAN KIRK
OFFICE OF THE COUNTY COUNSEL
70 WEST HEDDING STEET
EAST WING, 9TH FLOOR
SAN JOSE, CA 95110
LORRAINE.VAN_KIRK@SCCGOV.ORG
EDWARD T. WATERS
FELDESMAN TUCKER LEIF ER FIDELL LL P
1129 20TH STREET, N.W.
4TH FLOOR
WASHINGTON, DC 20036
202-466-8960
EWATERS@FTLF.COM

JAMES R. WILLIAMS
COUNTY COUNSEL
OFFICE OF THE COUNTY COUNSEL, COUNTY
OF SANTA CLARA
70 WEST HEDDING STREET
EAST WING, NINTH FLOOR
SAN JOSE, CA 95110-1770
408-299-2900
JAMES.WILLIAMS@CCO.SCCGOV.ORG
DAVID M. ZIONTS
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-6000
DZIONTS@COV.COM

19-1019
TEXAS, ET AL.
CALIFORNIA, ET AL.

JEREMY C. DOERRE
TILLMAN WRIGHT PLLC
3440 TORINGDON WAY
SUITE 310
CHARLOTTE, NC 28277
704-248-4883
JDOERRE@TI-LAW.COM
KYLE D. HAWKINS
SOLICITOR GENERAL
P.O. BOX 12548 (MC 059)
AUSTIN, TX 78711-2548
512-936-1700
KYLE.HAWKINS@OAG.TEXAS.GOV
ROBERT E. HENNEKE
TEXAS PUBLIC POLICY FOUNDATION FOR
THE AMERICAN FUTURE
901 CONGRESS AVENUE
AUSTIN, TX 78701
512-472-2700
RHENNEKE@TEXASPOLICY.COM
DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV

SAMUEL PASSCHIER SIEGEL
CALIFORNIA DEPARTMENT OF JUSTICE
1300 I STREET
SACRAMENTO, CA 95814
SAM.SIEGEL@DOJ.CA.GOV

